Case #:
THE SUPREME COURT OF THE UNITED STATES

Original Case Number: 19CV3052

Tamara Rouhi

Original Case/Complaint/Exhibits
Filed: 10/18/19

Plaintiff/Appellant
V

Appellate Court Case Number:
20-1791

Kettler et al
Defendants/Appellee

A review from the US Court of
Appeals for the Fourth Circuit.
Civil Case.
Jury not requested.

CERTIFICATE OF SERVICE AND CERTIFICATE OF
COMPLIANCE
Whiteford, Taylor &

Thomas Thomas and

Tamara Rouhi

Preston 7 St. Paul Street, 14th

Hafer LLP

125 Fennington Circle

floor Baltimore, MD 21202

WoodHolme Center

Owings Mills MD 21117

18009878705

1829 Reisterstown Rd, Ste

4105228217

Counsel for Kettler

200

Pro Se Plaintiff/Appellant

Law Offices of Jonathan P.

Baltimore, MD 21208

Stebenne 100 South Charles

4106530460

Street, Suite 1101 - Tower II

Counsel for Habitat.

Baltimore, MD 21201

America

4107520575
Counsel for Habitat America

CERTIFICATE OF COMPLIANCE
The Document titled Petition for Review and Writ of Certiorari is in Century
Schoolbook font in at least llpt. It is on 8 1/2 by 11 paper. The pages are double
spaced. It contains f3

pages and 2JH.Z2_words, and does not exceed the US

Supreme Court’s word limitations.
CERTIFICATE OF SERVICE
One copy of the Document titled Petition for Review and Writ of Certiorari
shall be served upon each party in accordance with Supreme Court Rule 29, 3
(Rule 33.2 preparation). In addition, two Appendix Volumes, A Motion to proceed
in Forma Pauperis (both typed and filled out), and this document will be sent to
the Defendant. One copy will also be sent to the US Supreme Court in light of the
Corona Virus.
This was done Via USPS on the date of

^-Z7-2(

.. The addresses are

listed below.
Whiteford, Taylor & Preston 7 St. Paul
Street, 14th floor Baltimore, MD 21202

Thomas Thomas and Hafer LLP
WoodHolme Center

Counsel for Kettler

1829 Reisterstown Rd, Ste 200

Law Offices of Jonathan P. Stebenne

Baltimore, MD 21208

100 South Charles Street, Suite 1101 -

Counsel for Habitat America

Tower II Baltimore, MD 21201

US Supreme Court

Counsel for Habitat America

1 First Street NE
Washington, DC 20543

I certify, under penalty of perjury, that the information in this document is
true to the best of my knowledge.
\i

Tamara Rouhi
Pro Se

A

